Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




Nursing Home Resident Assessment

           Quality of Care




                   JUNE GIBBS BROWN
                    Inspector General

                      JANUARY 2001
                      OEI-02-99-00040
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of

Inspector General. It conducts short-term management and program evaluations (called

inspections) that focus on issues of concern to the Department, the Congress, and the public. The

inspection reports provide findings and recommendations on the efficiency, vulnerability, and

effectiveness of departmental programs. 


OEI's New York regional office prepared this report under the direction of John I. Molnar,

Regional Inspector General, and Renee C. Dunn, Deputy Regional Inspector General. Principal

OEI staff included:


REGION                                        HEADQUARTERS

Danielle Fletcher, Lead Analyst                   Susan Burbach, Program Specialist

Lucille Cop                                       Barbara Tedesco, Mathematical Statistician

Vince Greiber                                     Linda Moscoe

Steve Shaw                                        Brian Ritchie


* All staff in the New York Regional Office participated in this inspection.




   To obtain copies of this report, please call the New York Regional Office at 212 264-2000.
         Reports are also available on the World Wide Web at our home page address:

                                    http://www.hhs.gov/oig/oei
                     EXECUTIVE SUMMARY
PURPOSE

      To assess the current state of practice of implementing nursing home resident assessments.

BACKGROUND

      The Office of Inspector General undertook a series of nursing home inspections examining
      the quality of care in nursing homes. This report is a part of that series. A companion
      report “Nursing Home Resident Assessment: Resource Utilization Groups” reviews the
      integration of the skilled nursing facility prospective payment system with the resident
      assessment.

      The Nursing Home Reform Act mandates that nursing homes use a clinical assessment
      tool known as the Resident Assessment Instrument to identify residents’ strengths,
      weaknesses, preferences, and needs in key areas of functioning. This assessment is an
      integral part of the residents’ medical record. It is designed to help nursing homes
      thoroughly evaluate residents and provides each resident with a standardized,
      comprehensive, and reproducible assessment. Upon completion of the assessment, the
      information guides the team to prepare individualized care plans for each resident. The
      minimum data set (MDS) is a component of the resident assessment which contains a
      standardized set of essential clinical and functional status measures. Triggers from the
      minimum data set identify conditions for additional assessment and review, and cause the
      nursing home to further evaluate a resident using Resident Assessment Protocols (RAPs)
      which lead to the care plan.

      This inspection is based on information gathered from three different sources: a medical
      review of nursing home medical records for a sample of 640 nursing home residents, a
      self-administered survey of 64 nursing home MDS coordinators, and a telephone survey of
      64 nursing home administrators.

FINDINGS

Generally, nursing homes follow a systematic process when implementing
Resident Assessments

      All MDS coordinators report that an interdisciplinary team evaluates each resident and
      participates in the completion of the MDS form. Almost all facilities, 81 percent, have a
      full time registered nurse in the MDS coordinator position. Almost all nursing homes have



   Nursing Home Resident Assessment            i                                   OEI-02-99-00040
      some kind of ongoing training for staff that participate in the MDS. A review of signed
      MDSs indicates that 85 percent of nursing homes had at least four professionals assess
      each resident.

However, we found differences between the MDS and the rest of the medical
record, some of which may affect care planning

      Differences

      A medical record review of the MDS shows an average of 17 percent of the 406 fields for
      each resident are different from the medical record. We determined a difference to exist
      when our reviewers’ assessment did not match that of the nursing home. An explanation
      of possible reasons for this are discussed in the body of the report.

      One of the highest rates of difference is 31 percent in section G, Physical Functioning and
      Structural Problems. The goal of this section is to assess the resident and develop a plan
      of care that maintains or improves the resident’s level of involvement in their activities of
      daily living. This is to assure the resident is functioning at his or her highest potential.
      Many MDS coordinators (40 percent) report section G is the most difficult to complete,
      and 20 percent of the MDS coordinators report that they would make changes to section
      G. This is one of the most subjective sections of the MDS.

      Resident Assessment Protocols

      Resident Assessment Protocols, or RAPs, flow from the MDS and guide the residents’
      plans of care. In practice, there are key elements or questions in the MDS that when
      answered in a specific way “trigger” one of 18 RAPs. Seventy-six percent of the RAP
      decisions were the same for both our reviewers and the nursing home. However, in 14
      percent of the records, the RAP was not triggered by the nursing home when our
      reviewers indicated one was triggered, and subsequently no care plan was developed for
      the resident. In 11 percent of the records, the nursing home triggered RAPs when our
      reviewer did not. Again, possible reasons are discussed in the body of the report.

      Care planning

      When reviewing whether there were care plans generated from the RAPs for our sample
      residents, we found that 26 percent of triggered RAPs do not have care plans. One
      possible explanation for lack of care planning is that the medical issue may have been
      addressed, resolved, or included in another RAP.




   Nursing Home Resident Assessment             ii                                     OEI-02-99-00040
Plans of care are generally being followed

      We also reviewed the progress notes for 30 days after the care planning date to determine
      whether the care plan was implemented. Thirty-day progress notes from the medical
      record indicate follow up by the staff on almost all care plans. Almost all MDS
      coordinators agree that care plans evolve from the MDS evaluations and their direct care
      staff use the care plans to provide treatment to the residents. The director of nursing,
      MDS coordinator, or the direct care nurse is usually responsible for assuring that the care
      plan is implemented. All MDS coordinators report reviewing the plan of care on some
      schedule. Almost three-quarters of the coordinators report that the care plan is reviewed
      quarterly; more than 80 percent say it is reviewed as needed.


RECOMMENDATIONS

      Clearly, nursing homes are attempting to systematically complete the MDS and implement
      the plans of care. However, they are having difficulty administering an inherently complex
      process. There are apparently differences in nursing home staffs’ understanding of the
      MDS and the resident assessment process.

      Based on our findings and the concerns of the nursing home MDS coordinators and
      administrators, we recommend that HCFA:

      <         more clearly define MDS elements, especially section G, and

      <	        work with the nursing home industry to provide enhanced and coordinated training
                to nursing homes to be sure that similar and accurate information about the MDS
                is being disseminated.


AGENCY COMMENTS

      We received comments from the Health Care Financing Administration. They concur with
      both of our recommendations and describe a number of important steps they are taking to
      improve understanding and implementation of the resident assessment, particularly the
      MDS. We appreciate HCFA’s thoughtful consideration of our report.

      The HCFA also provided technical comments which we have incorporated in the report.
      The full text of the comments is provided in Appendix C. This also contains HCFA’s
      comments on our companion report about the relationship between the resident
      assessment and the reimbursement system. We discuss these comments in the other
      report.


   Nursing Home Resident Assessment             iii                                  OEI-02-99-00040
                          TABLE                       OF             CONTENTS

                                                                                                                         PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i



INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1



FINDINGS

          Nursing homes follow a systematic process . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


          Differences may affect care planning . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


          Plans of care are being followed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14



RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15



APPENDICES

          A: Confidence Intervals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


          B: Minimum Data Set . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17


          C: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24





      Nursing Home Resident Assessment                          iv                                                 OEI-02-99-00040
                                   INTRODUCTION

PURPOSE

         To assess the current state of practice of implementing nursing home resident assessments.


BACKGROUND

         The Senate Special Committee on Aging held hearings in the summer of 1998 following
         reports by the Health Care Financing Administration (HCFA) and the General Accounting
         Office (GAO) of serious concerns about nursing home residents' care and well-being.
         Subsequently, the Office of Inspector General (OIG) undertook a series of nursing home
         inspections examining the quality of care in nursing homes. They include trends in
         reported abuse among residents, the role of the ombudsman in protecting residents, the
         capacity of the State survey and certification program, the trends in the Online Survey
         Certification and Reporting System (OSCAR) data, the access of nursing home survey
         results and access to nursing homes. This report is a part of that series. A companion
         report “Nursing Home Resident Assessment: Resource Utilization Groups,” reviews the
         integration of the skilled nursing facility prospective payment system with the resident
         assessment.

         Generally a nursing home is a residential facility which offers daily living assistance to
         people who are either physically or mentally unable to live independently. Residents are
         provided rooms, meals, assistance with daily living, and, in most cases, some medical
         treatment for those residents who require it.

         Medicare Part A can help pay for skilled nursing facility (SNF) care for up to 100 days in
         a benefit period when a beneficiary meets certain conditions. These conditions include a
         requirement of daily skilled nursing or rehabilitation services, a prior three consecutive day
         stay in a hospital, admission to the SNF within a short period of time after leaving the
         hospital, treatment for the same condition that was treated in the hospital, and a medical
         professional certifying the need for daily skilled nursing or rehabilitation care. In 1990
         Medicare paid $1.7 billion to nursing homes. In 1998 this amount had increased to $10.4
         billion1. Medicare pays only a small portion of the nation’s nursing home bills. Most bills
         are paid by personal funds, purchased long-term care insurance, and Medicaid.



         1
           U.S. Department of Health and Human Services, Health Financing Administration, Office of the Actuary, National
Health Statistics Group: http://www.hcfa.gov/stats/nhe-oact/tables.


     Nursing Home Resident Assessment                       1                                              OEI-02-99-00040
         Medicaid coverage varies among States. Medicaid eligible beneficiaries who require
         custodial care such as help with eating, bathing, taking medicine and toileting, as well as
         those who require skilled care may have a nursing home stay paid by Medicaid. Medicaid
         payments to nursing homes in 1996 totaled $40.6 billion. Despite the increase in Medicare
         and Medicaid payments, concern remains about the quality of care in nursing homes.

         In 1986 the Institute of Medicine conducted a study on nursing home regulation and
         reported prevalent problems regarding the quality of care for nursing home residents and
         the need for stronger Federal regulations. In 1987 the GAO reported that over one third
         of nursing homes were operating under the Federal minimum standards. This report, along
         with widespread concern regarding nursing home conditions, led Congress to pass the
         Omnibus Budget Reconciliation Act (OBRA 1987). As a part of OBRA 1987, Congress
         passed the comprehensive Nursing Home Reform Act (P.L. 100-203), expanding
         requirements that nursing homes have to comply with prior to Medicare or Medicaid
         certification.

         The Resident Assessment

         The Nursing Home Reform Act mandates that nursing homes use a clinical assessment
         tool known as the Resident Assessment Instrument (RAI) to identify residents’ strengths,
         weaknesses, preferences, and needs in key areas of functioning. The RAI is designed to
         help nursing homes thoroughly evaluate residents and provides each resident with a
         standardized, comprehensive, and reproducible assessment. “With consistent application
         of item definitions, the RAI ensures standardized communication both within the facility
         and between facilities. Basically, when everyone is speaking the same language, the
         opportunity for misunderstanding or error is diminished considerably.”2

         The RAI was developed by a research consortium under contract with the the health Care
         Financing Administration (HCFA) and consists of three key components: the Minimum
         Data Set (MDS), Triggers and Resident Assessment Protocols (RAPs), and Utilization
         Guidelines. Most States required nursing homes to begin implementing the RAI in 1991.
         It was intended that the RAI be a dynamic tool, and HCFA began developing version 2.0
         of the RAI in early 1993 which is now in use. The HCFA is committed to continuous
         reviews and updates.

         The RAI is intended to be completed by an interdisciplinary team of nursing home staff
         who gather facts about the residents’ strengths and needs. The interdisciplinary team
         should ideally include dieticians, speech, physical and occupational therapists, social
         workers, pharmacists, and nurses. The attending physician is also an important participant



         2
         U.S. Department of Health and Human Services, Health Care Financing Administration, Long Term Care Resident
Assessment Instrument User’s Manual Version 2.0 October, 1995.


     Nursing Home Resident Assessment                     2                                            OEI-02-99-00040
         in the RAI process providing valuable input on sections of the MDS and RAPs. Federal
         regulations require each individual who completes a portion of the RAI to sign, date, and
         certify its accuracy. Regulations also require a registered nurse sign and certify that the
         assessment is complete. Upon completion of the assessment, the information guides the
         team to prepare individualized care plans for each resident.

         The Minimum Data Set

         The MDS 2.0, a component of the RAI, contains a standardized set of essential clinical
         and functional status measures. It must be collected on every resident in the nursing home
         at regular intervals during their nursing home stay regardless of the method of payment.
         Nursing homes are required to “conduct initially and periodically a comprehensive,
         accurate, standardized, reproducible assessment of each resident’s functional capacity.” 3
         All residents must be completely assessed in the first 14 days after admission, promptly
         after a significant change in their physical or mental condition, and at least once every 12
         months. Additionally, all MDS assessments must be reviewed at least every 3 months to
         assure continued accuracy. The prospective payment system was phased into nursing
         homes in July of 1998, and all nursing homes were expected to comply with the new
         system in January of 1999. Skilled nursing facilities are required to classify residents into
         one of 44 Resource Utilization Groups (RUGs-III) based on assessment data from the
         MDS for reimbursement. Since the implementation of the prospective payment system
         there is a more frequent MDS schedule for those residents reimbursed by Medicare Part
         A.

         Triggers and Resident Assessment Protocols

         Specific responses to MDS items alert the nursing home to potential problems for the
         resident. These “triggers” are associated with specific questions on the MDS. If one or a
         combination of MDS elements are triggered, the resident is identified as someone who has
         or may develop specific functional or clinical problems. Triggers identify conditions for
         additional assessment and review, and cause the nursing home to further evaluate a
         resident using Resident Assessment Protocols (RAPs). Triggers indicate that specific
         clinical factors are present that may or may not represent a condition that should be
         addressed in the plan of care. The MDS responses that define triggers are specified in
         each RAP.

         The Nursing Home Reform Act requires RAPs at the 14 day comprehensive assessment,
         significant changes, and annually. The RAPs assist in the development of plans of care.
         There are 18 RAPs in Version 2.0 of the Resident Assessment Instrument. They include
         items such as cognitive loss/dementia, ADL function/rehabilitation, psychosocial well-


         3
         U.S. Department of Health and Human Services, Health Care Financing Administration, Long Term Care Resident
Assessment Instrument User’s Manual Version 2.0 October, 1995


     Nursing Home Resident Assessment                     3                                            OEI-02-99-00040
   being, nutritional status, dehydration/fluid maintenance, and pressure ulcers.

   Plans of Care

   The theory behind the RAI is that a strong link between MDS, RAPs and care planning is
   essential to provide each resident with a solid approach to prevent avoidable decline and
   build upon current strengths. Meaningful care planning takes into account the unique
   traits of each resident which translates into providing good quality of care and quality of
   life. The OBRA ‘87 requires that each nursing home resident have a comprehensive plan
   of care. This plan is based on information gathered by the MDS and any further review
   and assessment. The plans of care must include measurable objectives and timetables to
   meet the resident's medical, nursing, and mental needs identified in the comprehensive
   assessment. The services provided under the plan of care are to attain or maintain the
   resident’s highest practicable physical, mental, and psychosocial well-being. The plans of
   care are to be periodically reviewed and revised when necessary after each assessment.

   MDS Coordination

   When Medicare reimbursement became linked to resident assessments, MDS coordinator
   roles became more vital to nursing homes. MDS coordinators are generally registered
   nurses who oversee the assessments and paperwork in order to guarantee proper
   completion. The MDS coordinators work with an interdisciplinary staff to produce the
   written and electronic documents necessary for Medicare reimbursement. The MDS
   coordinator also assures that each resident’s MDS is coded accurately so that the nursing
   home is financially able to provide all necessary services.

   In addition MDS coordinators affect the quality of care of the residents. Completing a
   thorough and accurate comprehensive assessment enables the nursing home to provide
   appropriate plans of care for each resident. The MDS coordinators can provide a global
   picture of each resident and can spot weaknesses in their plans of care.

   Prior Studies

   The Research Triangle Institute completed a study in 1995 entitled “Evaluation of the
   Nursing Home Resident Assessment Instrument” that examined the effect of the resident
   assessment instrument on quality of care in nursing homes. One finding suggested that
   administrators and directors of nursing positively accepted the RAI and believed it helped
   individualize the plans of care. Another key finding suggested the overall quality of care
   and care planning improved in nursing homes when the RAI was implemented. In
   addition, the study indicated that the RAI significantly reduced hospitalization rates and
   improved resident outcomes in certain areas.




Nursing Home Resident Assessment             4                                      OEI-02-99-00040
          However, recent reports by the Office of Inspector General4 and another researcher5 found
          that the failure to provide comprehensive assessments was among the 10 most frequently
          cited deficiencies in nursing homes. A 1996 study for HCFA reported that between 25
          and 30 percent of nursing homes were deficient in their development of comprehensive
          assessments and/or comprehensive care plans.

METHODOLOGY

          This inspection is based on information gathered from three different sources: a medical
          review of nursing home medical records for a sample of 640 nursing home residents, a
          self-administered survey of 64 nursing home MDS coordinators, and a telephone survey of
          64 nursing home administrators. We conducted our field work between June and August
          1999.

          Sample Selection

          We selected Medicare, Medicaid, and private pay nursing home residents using a three-
          stage stratified, cluster sample. First, we selected a stratified sample of eight States to
          include the four States with the most certified nursing home beds (California, New York,
          Texas, and Illinois), two States randomly selected from the four currently using a
          prospective payment system for Medicaid reimbursement in a HCFA demonstration
          project (Mississippi and Maine), and two States randomly selected from the remaining 40
          States (Connecticut and Virginia).

          Skilled nursing facilities refers to nursing homes that participate in Medicare. Nursing
          facilities refers to nursing homes certified to participate in Medicaid. For the purposes of
          this study, we will refer to Medicare, Medicaid, and private pay facilities as nursing homes
          because we included all payor types for the sample selection.

          Next, we randomly chose eight nursing homes in each of the eight sample States,
          excluding nursing homes with a bed count of less than 60 to ensure a sufficient number of
          residents who fit the selection criteria. Finally, we randomly selected 10 residents in each
          nursing home for a total of 640 residents. This selection was made from all nursing home
          residents who were in the 64 sample nursing homes in December 1998, regardless of
          payment source. These residents were admitted to the nursing home between July 1998
          and December 1998. We selected the 14 day admission assessment completed for the
          resident from July to December 1998 and reviewed all the medical records prior to this


          4
              Department of Health and Human Services, Office of Inspector General, Office of Evaluations and Inspections,
Nursing Home Survey and Certification: Deficiency Trends OEI-02-98-00330, March 1999.

          5
              Charlene Harrington, Ph.D. The Regulation and Enforcement of Federal Nursing Home Standards, 1991-1996 University of
California, Department of Social and Behavioral Sciences, March 1998.


      Nursing Home Resident Assessment                              5                                                   OEI-02-99-00040
   assessment. Data for all samples were weighted and projected to the universe.

   Medical Review and Analysis

   Comparison with the medical record. We obtained the services of a medical review
   contractor who employed nurses with experience in completing the MDS in nursing homes
   and in consulting and training on the MDS process to conduct the review. These nurses
   visited each nursing home and completed a 14 day assessment based on the resident’s
   medical record for the same 14 day time period. In doing so, our reviewers did not refer
   to the original MDS during their review nor did they contact the residents or the staff to
   complete their assessments. They were instructed to complete each field of the
   assessment only if there was sufficient and reliable information in the medical record to
   warrant a determination. Subsequently, we made a comparison of the results for each
   field. In this way, we were able to determine if the nursing homes’ resident assessment
   was consistent with the rest of the medical record.

   Nine residents did not fit our selection criteria, thus leaving a sample of 631 residents. All
   but three completed copies of the MDS were forwarded to us by the nursing home. The
   nurses were unable to complete some fields in the MDS due to lack of information in the
   medical record6. Most of these fields required information that was inappropriate for a 14
   day assessment. All other fields had sufficient information for our reviewers to complete
   the MDS.

   The methodology is useful to identify differences between what our reviewers would have
   entered in the MDS based on a review of the other medical records, versus what the
   facility nurses observed in the actual physical assessment of the patient. Our method does
   not permit a specific determination of why the differences occurred -- e.g., an error in the
   MDS review by the observing nurse, an error or omission in the medical record, or simply
   an honest difference of opinion given a similar set of facts. However, overall such
   differences might highlight the need to take steps to ensure greater consistency.

   Triggering of RAPS. Additionally, the reviewers generated appropriate RAPs based on
   the MDS that they prepared. Resident Assessment Protocols generated by the nursing
   home were not available for 75 of our sample residents leaving 556 of 631 residents. We
   compared the RAPs generated by our reviewers to those of the nursing home.

   Plans of care. Finally, our reviewers evaluated the medical records for the 30 day period
   after the MDS was completed to determine if plans of care were appropriately developed,
   and if the 30 day progress notes reflected implementation of the plans of care. They
   reviewed all records where a RAP was generated and there was a plan of care to
   determine if the care plan was implemented.

   6
    These fields include B6, C7, E3, E5, G3a, G9, H4, I3, K3, N5a, R1a, R1b, and R1c.


Nursing Home Resident Assessment                              6                         OEI-02-99-00040
   Surveys

   We sent a self-administered questionnaire to each MDS coordinator in the 64 nursing
   homes in our sample and asked questions regarding the implementation of the resident
   assessment and plans of care. We had a 100 percent response rate from the MDS
   coordinators. We obtained information regarding the characteristics, training, and
   coordination of the staff who complete the assessments and plans of care. In addition, we
   looked at the structures and processes the staff use to perform the resident assessment and
   their satisfaction with the process.

   Interviews

   We conducted structured telephone interviews in July 1999 with nursing home
   administrators in each of the 64 sample nursing homes. We had a 100 percent response
   rate from the nursing home administrators. We asked them questions regarding the
   implementation of the resident assessment and plans of care. During these interviews, we
   also obtained information from them regarding the characteristics, training, and
   coordination of the staff who complete the assessments and plans of care. We also looked
   at the structures and processes the staff used to fulfill the resident assessment instrument
   requirements and their satisfaction with the process.

   Limitations

   The results of this analysis are limited by the information available in the medical record.
   In some cases, the nursing home completes the MDS based on observation of or
   discussion with the resident about which there may not be any other information in the
   medical record.

   For Section P: Special Treatment and Procedures, which includes minutes of occupational
   and physical therapy given in the last 7 days, the reviewer compared the therapy logs to
   the MDS. In some cases, the logs were kept in units of 15 minutes. The reviewers
   converted the units to minutes.


   This inspection was conducted in accordance with the Quality Standards for
   Inspections issued by the President’s Council on Integrity and Efficiency.




Nursing Home Resident Assessment             7                                      OEI-02-99-00040
                                      FINDINGS

Generally, nursing homes follow a systematic process when
implementing Resident Assessments

      Interdisciplinary team

      All MDS coordinators report that an interdisciplinary team evaluates each resident and
      participates in the completion of the MDS form. About 75 percent of MDS coordinators
      indicate that the interdisciplinary team is composed primarily of physical therapists, speech
      therapists, occupational therapists, activity directors, dietitians, social workers and floor
      nurses for all 5, 14, 30, 60 and 90-day assessments. All MDS coordinators say that the
      interdisciplinary team gets together to discuss the patient’s current condition as well as to
      discuss and monitor the plans of care. Ninety-three percent of MDS coordinators report
      that the same staff are also responsible for completing the patients’ plan of care.

      A review of signed MDSs indicates that 85 percent of nursing homes had at least four
      professionals assess each resident. Less than 3 percent of MDSs are completed only by a
      registered nurse. Physicians rarely sign the MDS; there is no requirement that they do so.

      MDS coordinator

      Almost all facilities have a person in the position of MDS coordinator. Eighty-one percent
      of MDS coordinators are registered nurses, and the remainder are either LPNs or LVNs
      (15 percent) or social workers (4 percent). Although a MDS coordinator is not required
      to be a registered nurse, a registered nurse is required to sign and verify all sections of the
      MDS. About 20 percent of administrators also state the MDS coordinator does not sign
      the completed MDS in his or her nursing home.

      Almost all MDS coordinators have at least 2 years experience in a geriatric setting, and
      over 50 percent have more than 10 years experience. The role of the MDS coordinator in
      nursing homes is a fairly new position. About 60 percent of MDS coordinators have
      worked 1 year or less in a MDS coordinator role at their current nursing home. Over 65
      percent have no prior experience as a MDS coordinator in another nursing home.

      Almost all MDS coordinators are full time employees and only work in one nursing
      home, although MDS coordinators fill multiple roles in that nursing home. Over half
      indicate that they have responsibilities other than that of MDS coordinator. About 20
      percent of those who have other responsibilities serve as the director or assistant director
      of nursing while about 70 percent serve in other RN managerial roles.



   Nursing Home Resident Assessment             8                                       OEI-02-99-00040
      Regarding the MDS process, 73 percent of MDS coordinators say they sometimes have
      difficulty adhering to the MDS time schedules. More than half of these say it is due to the
      rapid admission and discharge rates of residents. One-quarter say this is due to insufficient
      staff.

      Training

      Both MDS coordinators and nursing home administrators report ongoing training for all
      staff that participate in the MDS. About 70 percent of nursing home administrators state
      that the ongoing training is required by the nursing home. Nursing home administrators
      say that their staff is trained by private consultants, corporations, fiscal intermediaries,
      State associations, and the Health Care Financing Administration.

      MDS Coordinators say that ongoing training is most commonly a combination of formal
      workshops outside the nursing home, formal training within the nursing home, informal
      on-the-job training, or referencing the MDS manual. Seventy-three percent say that their
      on-going MDS training includes formal workshops, either at the facility or another
      location.

      About 80 percent of MDS coordinators find the MDS manual to be clear and easily
      understandable, however, only 42 percent of nursing home administrators believe their
      staff feel the same way. Some administrators report that their staff find the manuals to be
      vague and confusing and open to interpretation. MDS coordinators who do not find the
      manuals clear and easily understandable suggest that the MDS manual could be clearer,
      more specific, more descriptive, and with more examples and situations. Specifically, the
      activities of daily living (ADL) in section “G” are reportedly most difficult.

      According to both administrators and MDS coordinators, updates that affect the MDS
      come from several sources, primarily HCFA memos and bulletins and State memos and
      bulletins. About half (56 percent) of nursing home administrators and 40 percent of MDS
      coordinators mention other professional organizations as a source for updates, and
      approximately 40 percent of both groups mention the Internet as the source for updates;
      particularly the HCFA and the American Health Care Association site.


However, we found differences between the MDS and the rest of the
medical record, some of which may affect care planning

      Differences

      An average of 17 percent of the 406 fields for each resident are different from the medical
      record. We determined a difference to exist when our reviewers’ assessment did not
      match that of the nursing home. See Table 1 on the following page for a complete listing



   Nursing Home Resident Assessment             9                                      OEI-02-99-00040
   of difference rates for all MDS sections. At least 3 percent of the fields for all residents
   have differences. Difference rates for residents range from 3 percent to 30 percent. Only
   1 percent of residents have MDS difference rates of 5 percent or less, and 11 percent of
   residents have difference rates of 10 percent or less.


                                            Table 1
                       Rates of Differences for All Sections of the MDS

     Section                                                 Rates        # of Fields
     B. Cognitive Patterns                                    20%             15
     C. Communication/Hearing Patterns                        10%             15

     D. Visual Patterns                                       24%              5

     E. Mood and Behavior Problems                            12%             27
     F. Psychosocial Well-Being                               22%             19

     G. Physical Functioning & Structural Problems            31%             52
     H. Continence in Last 14 Days                            15%             17
     I. Disease Diagnosis                                     5%              57

     J. Health Conditions                                     16%             37
     K. Oral/Nutritional Status                               10%             21

     L. Oral/Dental Status                                    22%              7

     M. Skin Condition                                        15%             32
     N. Activity Pursuit Patterns                             26%             24
     O. Medications                                           24%              8
     P. Special Treatments & Procedures                       15%             56

     Q. Discharge Potential & Overall Status                  37%              4
     T. Therapy Supplement for Medicare PPS                   29%             10

     TOTAL                                                   17%             406
                                                         Source: OIG medical review

   As noted in the background section, the methodology used in this report is useful to
   identify differences between what our reviewers would have entered in the MDS based on
   a review of the other medical records, versus what the facility nurses observed in the
   actual physical assessment of the patient. Our method does not permit a specific

Nursing Home Resident Assessment               10                                     OEI-02-99-00040
   determination of why the differences occurred -- e.g., an error in the MDS review by the
   observing nurse, an error or omission in the medical record, or simply an honest difference
   of opinion given a similar set of facts. However, overall the differences revealed in our
   review highlight the need to take steps to ensure greater consistency.

   One of the consequences of our analysis is the fact that some categories are affected more
   than others. Among sections with the highest difference rate are Section G: Physical
   Functioning and Structural Problems (31 percent) and Section Q: Discharge Potential and
   Overall Status (37 percent). The goal of Section G is to assess the resident and develop a
   plan of care that maintains or improves the resident’s level of involvement in their
   activities of daily living (ADLs). The ADLs assure the resident is functioning at his or her
   highest potential. A resident’s ADL performance may vary from day to day or shift to
   shift; therefore, a proper assessment takes into account multiple perspectives over the
   course of 7 days. Fields within Section G with the highest difference rate are Self-
   performance Assessment of Locomotion off Unit (47 percent) and Self-performance
   Assessment of Locomotion on Unit (47 percent). Section Q, Discharge Potential and
   Overall Status, which also has a high difference rate, includes questions that are answered
   with information gathered from the caregivers, the resident and his family. The
   information is quite subjective and may change due to a number of factors such as whether
   the resident likes the nursing home.

   Thirty-nine percent of nursing home MDS coordinators report Section G the most difficult
   to complete. When asked which section they would change, 20 percent report they would
   change Section G. Some explained that the “staff views capabilities differently [and the
   capabilities] remain subjective” and they “would like more well-defined levels.” Some
   MDS coordinators also note that some sections on the MDS are “repetitive” and that the
   assessment needs to be condensed.

   Three sections have low difference rates of 10 percent or less. They include Section I:
   Disease Diagnosis (5 percent), Section C: Communication/Hearing Patterns (10 percent),
   and Section K: Oral/Nutritional Status (10 percent). The criteria for evaluating a disease
   or infection in Section I is much less subjective than other fields.

   Resident Assessment Protocols

   Resident Assessment Protocols, or RAPs, flow from the MDS and guide the resident’s
   plan of care. In practice, there are key elements or questions in the MDS that when
   answered in a specific way “trigger” one of the 18 RAPs. For example, if in the “cognitive
   pattern” section of the MDS a resident’s decision making ability was coded as moderately
   or severely impaired that would trigger the “cognitive loss” RAP and that weakness would
   have to be addressed in the residents plan of care.

   Another consequence of our analysis is a concern that the differences that we found
   appear to be significant enough to affect the care planning process. In order to determine


Nursing Home Resident Assessment           11                                     OEI-02-99-00040
   if that was the case, we looked at the RAPs. As can be seen in Chart 1, 76 percent of the
   RAP decisions are the same for both our reviewers and the nursing home. However, in 14
   percent of the records, the RAP was not triggered by the nursing home, and subsequently
   no care plan was developed for the resident. One possible explanation for the lack of care
   planning is that the medical issue may have been addressed, resolved, or included in
   another RAP. However, our analysis did not include whether or not this actually
   occurred.

   In 11 percent of the records, the nursing home triggered RAPs when our reviewer did not.
   Differences on the MDS may have resulted in different RAPs being triggered. In addition,
   if information regarding a resident’s condition is absent from the medical record, our
   reviewer would not have noted the condition on the MDS which could have resulted in a
   missed RAP trigger.

                                           Chart 1




                                   Source: OIG medical review



   Table 2 on the following page lists the 18 RAPs and the decisions of both the medical
   record reviewer and the nursing home. The RAPs with the greatest differences are
   “Psychosocial Well-Being” (38 percent ), “Activities” (37 percent), and “Mood State” (37
   percent). The RAPs with the least differences are “Feeding Tubes” (2 percent) and “ADL
   Functional Rehabilitation Potential” (10 percent). We tested the RAPs by payor source,
   and we found no clear evidence that payment source makes a difference.



Nursing Home Resident Assessment             12                                  OEI-02-99-00040
   Almost all MDS coordinators (86 percent) report that the RAPs are helpful when
   developing the plan of care. Additionally, some coordinators would like to see additional
   RAPs generated about pain management, the management of infections, and respiratory
   conditions.

                                              Table 2

                  Nurse Reviewer and Nursing Home Responses to RAPs

     Resident Assessment                   Total               Reviewer            NH
     Protocol (RAP)                      Difference           Trigger Only     Trigger Only
                                             (%)                  (%)              (%)
     Psychosocial Well-Being                  38                  17                 21
     Activities                               37                  14                 24
     Mood State                               37                  18                 18
     Visual Function                          36                  22                 14
     Dehydration                              34                  18                 16
     Dental Care                              33                  19                 14
     Psychotropic Drug Use                    30                  25                  5
     Nutritional Status                       29                  11                 18
     Falls                                    27                  15                 12
     Communication                            21                  11                 10
     Behavioral Symptoms                      19                  15                  5
     Pressure Ulcers                          19                  12                  8
     Physical Restraints                      18                  16                  1
     Urinary Incontinence                     18                  11                  7
     Cognitive Loss                           18                   7                 11
     Delirium                                 16                   7                  9
     ADL Rehab Potential                      10                   7                  3
     Feeding Tubes                             2                   2                  0
   * Percentages do not add to 100 percent due to rounding.            Source: OIG medical review




Nursing Home Resident Assessment                   13                                     OEI-02-99-00040
      Care planning

      When reviewing whether appropriate care plans were generated from the RAPs for our
      sample residents, we found that 26 percent of triggered RAPs do not have care plans.
      However, the medical issue may have been addressed, resolved, or included in another
      RAP. “Psychotropic Drug Use”, “Dental Care”, and “Visual Function” are the RAPs
      most commonly missing care plans. Residents who require dentures or eye glasses will
      always trigger the “Dental Care” or “Visual Function” RAPs, however, care planning is
      usually unnecessary if the resident already has these devices. “Feeding Tubes” is the RAP
      which most consistently results in care planning.

      It is noteworthy that nursing homes occasionally completed care plans for RAPs not
      triggered. “Falls” is an example where 8 percent of the medical records indicated care
      plans when the RAP was not triggered.


Plans of care are generally being followed

      We then reviewed the progress notes for 30 days after the care planning date to determine
      whether the care plan was implemented. Thirty-day progress notes from the medical
      record indicate follow up by the staff on virtually all care plans.

      Almost all MDS coordinators agree that care plans evolve from the MDS evaluations and
      their direct care staff use the care plans to provide treatment to the residents. The director
      of nursing, MDS coordinator, or the direct care nurse is usually responsible for assuring
      that the care plan is implemented. All MDS coordinators report reviewing the plan of care
      on some schedule. Almost three-quarters of the coordinators report that the care plan is
      reviewed quarterly; more than 80 percent say it is reviewed as needed.




   Nursing Home Resident Assessment            14                                      OEI-02-99-00040
                     RECOMMENDATIONS

     Clearly, the nursing homes are attempting to systematically complete the MDS and
     implement the plans of care. However, they are having difficulty administering an
     inherently complex process. There are apparently differences in nursing home staffs’
     understanding of the MDS and the resident assessment process.

     Based on our findings and the concerns of the nursing home MDS coordinators and
     administrators, we recommend that HCFA:

     <         more clearly define MDS elements, especially section G, and

     <	        work with the nursing home industry to provide enhanced and coordinated training
               to nursing homes to be sure that similar and accurate information about the MDS
               is being disseminated.


AGENCY COMMENTS

     We received comments from the Health Care Financing Administration. They concur with
     both of our recommendations and describe a number of important steps they are taking to
     improve understanding and implementation of the resident assessment, particularly the
     MDS. We appreciate HCFA’s thoughtful consideration of our report.

     The HCFA also provided technical comments which we have incorporated in the report.
     The full text of the comments is provided in Appendix C. This also contains HCFA’s
     comments on our companion report about the relationship between the resident
     assessment and the reimbursement system. We discuss these comments in the other
     report.




  Nursing Home Resident Assessment            15                                   OEI-02-99-00040
                                                                        APPENDIX A



                       Confidence Intervals for Key Findings

   We calculated confidence intervals for the key findings. The point estimate and 95 percent
   confidence interval are given for each of the following findings. The point estimates and
   confidence intervals for the findings vary based on the standard error for each individual
   finding.

                   KEY FINDINGS                      POINT      CONFIDENCE
                                                   ESTIMATE      INTERVAL
     Percent of nursing homes had 4 or more          85%             +/- 7%
     professions assess each resident
     Percent of MDS coordinators who are             81%             +/- 9%
     registered nurses
     Percent of nursing home administrators          42%            +/- 19%
     who find the MDS manuals clear and
     easily understandable
     Percent of MDS coordinators who find            80%             +/- 9%
     the MDS manuals clear and easily
     understandable
     Percent of MDS coordinators who find            39%            +/- 25%
     Section G difficult
     Percent of MDS coordinators who would           20%             +/-16%
     change Section G
     Percent of MDS fields with differences          17%             +/- 2%
     Percent of RAPs that match                      76%             +/- 2%
     Percent of RAPs triggered by our                14%             +/- 6%
     reviewers but not the nursing homes
     Percent of RAPs triggered by nursing            11%             +/- 5%
     homes but not our reviewers
     Percent of triggered RAPs without care          26%             +/- 6%
     plans



Nursing Home Resident Assessment              16                                OEI-02-99-00040
                                                                     APPENDIX B



                                   Minimum Data Set


   In this appendix we have included a complete copy of the Minimum Data Set.




Nursing Home Resident Assessment          17                                    OEI-02-99-00040
Nursing Home Resident Assessment   18   OEI-02-99-00040
Nursing Home Resident Assessment   19   OEI-02-99-00040
Nursing Home Resident Assessment   20   OEI-02-99-00040
Nursing Home Resident Assessment   21   OEI-02-99-00040
Nursing Home Resident Assessment   22   OEI-02-99-00040
Nursing Home Resident Assessment   23   OEI-02-99-00040
                                                                        APPENDIX C


                                   Agency Comments



   In this appendix, we present in full the comments from the Health Care Financing
   Administration.




Nursing Home Resident Assessment          24                                    OEI-02-99-00040
Nursing Home Resident Assessment   25   OEI-02-99-00040
Nursing Home Resident Assessment   26   OEI-02-99-00040
Nursing Home Resident Assessment   27   OEI-02-99-00040
Nursing Home Resident Assessment   28   OEI-02-99-00040
Nursing Home Resident Assessment   29   OEI-02-99-00040
